             CLOSEOUT MEMORANDUM FOR M-97120048
        On 11 December 1997, a program officer' brought an allegation of misconduct in
science to our attention. The complainant2 alleged that an NSF proposal, submitted by
three PIS (subjects); contained research projects that were already completed and that the
subjects were seeking duplicate funding.4 The complainant said the subjects submitted a
manuscript5 for publication prior to the submission of their proposal6 that described
results for the projects presented in the proposal. The proposal contained no
acknowledgement or reference to the manuscript.

       We determined that the results presented in the manuscript appeared to represent
the completion of the research projects described in the proposal. Because of the very
technical nature of the projects, however, we requested anNSF expert7to assist us in our
comparison. The expert agreed with our determination.

        We wrote to the subjects and requested their views. They contended that: there
was a "clear and substantial" distinction between the results presented in the manuscript
and the results expected from the proposed research plan; the "Results from Prior NSF
Support" section in their proposal showed that they were already working on the research
projects, so they did not think it necessary to list the manuscript in the proposal; and the
manuscript had not been accepted for publication at the time of the proposal's
submission.

        We sought the same NSF expert to review the subjects' response. The expert said
that the proposal was very poorly written. However, the expert explained that, with the
aid of the subjects' response, the expert could now discern that the subjects did show that
the proposal was new work that was a continuation of the manuscript's research projects.
Because the proposal was a continuation of the research presented in the manuscript, the
expert said the subjects should have acknowledged the submission of the manuscript in
the proposal. We concluded that there was insufficient substance showing that the
subjects intended to seek duplicate funding. We wrote to the subjects admonishing them
for their failure to list the manuscript in the proposal. We explained that, in future
proposals, they should be careful to clearly distinguish proposed work that is a
continuation of prior research projects and to provide lists of appropriate publications and
manuscripts as support.

       This inquiry is closed and no further action will be taken.



                                    Footnotes Redacted




                                         Page 1 of 2                              M 97-48
             CLOSEOUT
               ,      MEMORANDUM FOR'M-97120048


cc: Integrity, IG




                          Page 2 of 2
